July 18, 2019

Law Clerk Office
US Supreme Court of Justice
1 First Street NE
Washington, DC 20543
Attention:

Mr. Scott S. Harris
Mr. Clayton Higgins

Dear Sirs:
Re.: Petition for Writ of Certiorari – Irazu, Fernando Gabriel v. Oliva Sainz
de Aja, Margarita.
I am writing to you in connection with the above referenced-matter,
which now comprises two Petitions for Writ of Certiorari before the Court: (i)
Docket No. 18-1376 –filed on 4/15/2019 and scheduled to be distributed for
conference on 10/1/2019–; and (ii) the one attached hereto.
The overall topic addressed in the petition filed today was presented in
general terms as question # 4 in the previous one, which in fact condensed
three cases from the Appellate Court of Connecticut: (i) AC 41455
(substantive family proceedings); (ii) AC 41598 (consolidated sua sponte into
AC 41455) (magistrate disqualification and transfer to federal venue); and
(iii) AC 42118 (civil restraining order).
However, the Appellate Court of Connecticut sua sponte reversed its
ruling as to AC 42118 post-filing of the Petition for Certification before the
local Supreme Court at the time, and ultimately issued a new ruling postfiling of the Petition for Writ of Certiorari dated 4/15/2019, Docket No. 181376 (meaning the final ruling on AC 42118 was still pending on that date).
Based on its legal characteristics, such new and final ruling from the
Appellate Court of Connecticut regarding AC 42118 presents constitutional
issues on its own, which are carefully elaborated in the attached petition to
the Court –a supplemental brief would have not been the proper legal course
of action to adequately address such concerns.

Having said that, it should be respectfully noted that both petitions
before the Court are inherently interconnected and it would better serve the
interest of justice if they were jointly appreciated next 10/1/2019, regardless
of their respective status quo within the process before the Court.
The overall frame and conclusion of the case engulfing the parties up
to the present date is reflected in the petition of today’s date, as well as all
rulings, selected transcripts and evidence, normative text, and ancillary
included in its respective appendix.
Sincerely yours,

Fernando G. IRAZU
Bar # 310318
34	  Boulder	  Brook	  Rd.	  
Greenwich,	  CT	  06830	  
fgirazu@gmail.com	  
203 570-8318

	  

2	  

